In The

Supreme Olourt of

'^nxizh

Hospir a , Inc .,

Petitioner,

V.

Eli Lilly and Compan y ,
Respondent.
CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 24th day of January 2020, caused a copy of the Application
for an Extension of Time to File a Petition for Writ of Certiorari to be served via
overnight mail and an electronic version of the document to be transmitted via the
Court’s electronic filing system to:
David Krinsky
Williams & Connolly LLP
725 12th Street NW
Washington, D.C. 20005
(202) 434-5338
dkrinsky@wc. com

Adam L, Perlman
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000
Washington, D.C. 20004-1304
(202) 637-2277
adam.perlman@lw.com

Adam G. Unikowsky

